No. _________
IN THE SUPREME COURT OF THE UNITED STATES
SILVER CITY POLICE CHIEF
ED REYNOLDS AND CAPTAIN
RICKY VILLALOBOS,
Petitioners,
v.
KARRI DALTON AS THE PERSONAL
REPRESENTATIVE OF THE ESTATE OF
NIKKI BASCOM, DECEASED, AND NEXT
FRIEND TO M.B., A MINOR CHILD, AND
A.C., A MINOR CHILD,
Respondents.
CERTIFICATE OF COMPLIANCE
I, Mark D. Standridge, a member of the Bar of this Court, hereby state:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for Writ of
Certiorari field by Petitioners on August 31, 2021 contains 8,944 words, excluding
the parts of the Petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted,
/s/ Mark D. Standridge
Mark D. Standridge
Jarmie & Rogers, P.C.
2540 El Paseo Road, Suite D
Las Cruces, NM 88001
(575) 288-1453
mstandridge@jarmielaw.com
Counsel for Petitioners

